OMB Circular A-133 Audit Costs
of Catholic Relief Services

Report No. 0-000-01-012-F

August 31, 2001




                  Washington, D.C.
  U.S. Agency for
 INTERNATIONAL
  DEVELOPMENT



MEMORANDUM

FOR:            BHR/FFP, William T. Oliver, Director

FROM:           IG/A/FA, Alvin A. Brown, Director

SUBJECT:        OMB Circular A-133 Audit Costs of Catholic Relief Services,
                Report No. 0-000-01-012-F

The attached report summarizes our review of the reimbursement of audit costs by USAID
to Catholic Relief Services between fiscal years 1996 through 1998, and our determination
of the proper allocation of these costs, considering the Federal awards participation of at
least two other Federal agencies.       Your comments are included in their entirety in
Appendix II. The report contains recommendations that the Director, FFP:

1.     Resolve $80,499 of questioned OMB Circular A-133 audit costs properly
     attributable to the Department of State and USDA, that were reimbursed by USAID to
     CRS for its fiscal year 1996 through 1998 audits.

2.     Work with the USAID Office of Procurement to obtain adequate justification from
     Catholic Relief Services that internal audit costs are properly allocable to the annual
     Office of Management and Budget Circular A-133 audit effort. If these costs support
     the internal audit group, which is a function of accounting and internal controls, then
     the Director, FFP should request that CRS explain why these costs are not included in
     the indirect cost pool, thus negating the need to issue a direct award to support this
     effort.

Based on your comments, the Office of Food for Peace concurs with the recommendations
made in this report. Please notify the Office of Management Planning and Innovation
(M/MPI) when final actions on these recommendations are completed, and request
closure.
We appreciate the courtesies extended to us during our review. Please contact us if
you wish to discuss these comments or if you have any other questions concerning this
report.

Attachment (as stated)

cc: M/OP/PS/OCC, Mr. Steven Tashjian
Table of Contents
                    Summary of Results                       4

                    Background                               4

                    Objectives                               4

                    Findings                                 4

                    Recommendations                          6

                    Management Comments and Our Evaluation   7

                    Appendix I -Scope and Methodology        8

                    Appendix II - Management Comments        9




                                                                 3
Summary of   Although Catholic Relief Services (CRS) expends awards from USAID,
Results      the U.S. Department of State, and the U. S. Departme nt of Agriculture
             (USDA), USAID has reimbursed CRS for 100% of its OMB Circular
             A-133 audit costs. CRS has received payments in the amount of
             $2,002,415 in direct grant awards for audit costs associated with its fiscal
             year 1996 through 1998 audits. Of this amount, we believe that $33,541
             should have been charged to the Department of State and $46,958 should
             have been charged to USDA.


Background   During July 2000, officials from the Bureau for Humanitarian Response,
             Office of Food for Peace (FFP) became aware that CRS had been
             reimbursed by USAID for 100% of its OMB Circular A-133 audit costs for
             the past three years. CRS has been receiving these reimbursements
             through direct grants issued by FFP.

             CRS receives an annual audit performed by a non-Federal auditor in
             accordance with OMB Circular A-133 that, among other things, assesses
             CRS’s system for ensuring that its expenditures of Federal awards are
             allowable and that its indirect costs are allocable.

             During July 2000, FFP officials informed OIG officials that it planned to ask
             for CRS to reimburse the portion of audit costs related to grant programs
             from Federal agencies other than USAID.


Objectives   Our review addressed the following question:

             1. Did Catholic Relief Services correctly allocate its OMB Circular A-133
                audit costs between all Federal agencies providing awards from fiscal
                years 1996 through 1998?

             Our review was performed to address the concerns of the Office of Food for
             Peace related to the proper allocation of OMB Circular A-133 audit costs at
             CRS for fiscal years 1996 through 1998. The scope of our review and our
             methodology are included in Appendix I.


Findings     1. Did CRS correctly allocate its OMB Circular A-133 audit costs
                between all Federal agencies providing awards from fiscal years 1996
                through 1998?

                Although the expenditures of awards of two other Federal agencies were
                included in its OMB Circular A-133 audits for fiscal years 1996 through
                1998, CRS received reimbursement from USAID for 100% of the audit



                                                                                            4
   costs. CRS did not allocate the A-133 audit costs to Federal agencies in
   proportion to the participation of each Federal agency. The following
   charts identify what we believe should have been the proper allocation of
   the total audit costs incurred by CRS, based on the participation of the
   Federal agencies providing awards expended by CRS:

                Expenditures of Federal Awards by CRS
Audit Fiscal        USAID                State              USDA
 Year-end    USAID    %          State     %      USDA        %
   1996 $126,495,902 98.0 $ (20,487) 0.0 $ 2,596,070 2.0
   1997 124,005,289 96.3        2,379,808 1.9      2,349,195 1.8
   1998 132,680,858 93.6        4,626,601 3.3      4,526,619 3.2

                         Allocation of Audit Costs Based
                       on Expenditures of Federal Awards
Audit Fiscal                                                    Total
 Year-end     USAID            State           USDA           Audit Costs
   1996       $ 683,927        $ -0-           14,038         $ 697,965
   1997         614,034         11,784          11,632          637,450
   1998         623,955         21,757          21,288          667,000
   Total     $1,921,916        $33,541          46,958        $2,002,415

   Based on the above analysis, we believe $33,541 of audit costs should
   have been allocated to the U.S. Department of State and $46,958 should
   have been allocated to the U.S. Department of Agriculture. OMB
   Circular A-133 allows Federal award recipients to consider A-133 audit
   costs as direct costs or as allocated indirect costs. However, no provision
   exists that allows for an inconsistent method of allocating an entity’s audit
   costs to its various federal agencies. By choosing an inconsistent method
   of charging its audit costs, CRS is has not complied with Section A(2)(d)
   of OMB Circular A-122, “Costs Principles for Non-Profit
   Organizations,” which requires that allowable costs of an entity’s Federal
   awards be “accorded consistent treatment.”

   FFP had questioned CRS about its allocation of audit costs in past years
   but had not pursued the issue aggressively after officials within the
   USAID Office of Procurement accepted the method of allocation
   proposed by CRS to recover the audit costs for the years referred to
   above. If these audit costs were charged through an indirect rate, then
   each Federal agency would share in the cost of the audit. Instead, during
   fiscal years 1996-1998, USAID, through FFP, provided CRS with direct
   annual awards covering 100% of the OMB Circular A-133 audit costs for
   each of these years.




                                                                              5
CRS maintains an internal audit function that has received more than 50%
of the OMB Circular A-133 direct audit award costs for the fiscal year
1996 through 1998 audits. We did not analyze the A-133 audit costs
reimbursed for internal audit activities at CRS to determine if the group is
executing a purely A-133 audit function, or if the internal audit group is a
function of accounting and internal controls that should correctly be
considered CRS overhead. The salaries, benefits, travel costs, and
compliance follow-up costs specifically charged as A-133 audit costs by
CRS are generally costs that can be considered to support either effort.
USAID, however, should not issue a direct award to support this effort if
it is used as a function of CRS accounting and internal controls.

We are making the following recommendations regarding issues related
to audit costs charged by Catholic Relief Services.

       Recommendation No. 1: We recommend that the Director,
       Food for Peace, resolve the $80,499 of questioned OMB
       Circular A-133 audit costs properly attributable to the
       Department of State and USDA, that were reimbursed by
       USAID to CRS for its fiscal year 1996 through 1998 audits.

       Recommendation No. 2: We recommend that the Director,
       Food for Peace work with the USAID Office of Procurement
       to obtain adequate justification from Catholic Relief
       Services that internal audit costs are properly allocable to
       the annual Office of Management and Budget Circular
       A-133 audit effort. If these costs support the internal audit
       group, which is a function of accounting and internal
       controls, then the Director, FFP should request that CRS
       explain why these costs are not included in the indirect cost
       pool, thus negating the need to issue a direct award to
       support this effort.

       Management Response: Food for Peace management concurs
       with each of our recommendations.




                                                                          6
Management       BHR/FFP concurred with our recommendations, and offered several
Comments and     informative observations regarding issues discussed in our report. We have
Our Evaluation   included these comments in their entirety in Appendix II.

                 Upon completion of final actions taken to implement the recommendations
                 identified in the report, BHR/FFP should advise the Office of Management
                 Planning and Innovation and request closure.




                                                                                            7
                                                                          Appendix I



Scope and     Scope
Methodology
              This review assesses the allowability and allocability of audit costs
              associated with the OMB Circular A-133 audits of CRS for the fiscal year
              1996 through 1998 audits. The review was not performed in accordance
              with generally accepted auditing standards and we did not perform a
              review of significant management controls at FFP or CRS. The review
              was performed to address a specific concern of the Office of Food for
              Peace related to OMB Circular A-133 audit costs reimbursed to CRS. The
              procedures were explained to FFP officials prior to performance. These
              procedures included the performance of a quality control review of the
              fiscal year 1999 audit of CRS and an estimation of the audit costs charged
              to USAID by CRS during prior years.

              Methodology

              From October 200 through February 2001 we made inquiries of USAID
              officials, reviewed the direct grant agreements between USAID and CRS
              and performed analyses of audit costs associated with the A-133 audit, to
              determine the adequacy of the audit costs allocated to USAID by CRS.

              In December 2000, we performed a quality control review of the working
              papers supporting CRS’s fiscal year 1999 audit performed by KPMG,
              LLP. We reviewed the audit’s program and the auditors’ working papers
              to determine compliance with OMB Circular A-133.




                                                                                      8
                                                                              Appendix II




Management
Comments
             MEMORANDUM                                             April 18, 2001

             For:           OIG/A/FA, Alvin A. Brown
             From:          BHR/FFP, William T. Oliver, Director

             Subject:       Review of Audit Costs Charged by CRS to USAID through
                            Direct Grants (Draft Audit Report)

             We concur with the two recommendations contained in the audit report
             with a small revision to the second recommendation. We appreciate the
             efforts of the IG/A team in cond ucting this review and helping to ensure
             compliance with applicable food aid regulations. Following are specific
             comments on various sections of the report:

             BACKGROUND

             The last sentence of the first paragraph and the first two sentences of the
             second paragraph seem redundant.

             AUDIT FINDINGS

             The first sentence in the second paragraph should read… “FFP has
             questioned CRS about its allocation of audit costs in past years, but had not
             pursed the issue aggressively after officials within the Office of
             Procurement had accepted the method of allocation proposed by CRS to
             recover the audit costs for the years referred to above.”

             AUDIT RECOMMENDATIONS NOS. 1 THROUGH 2

             Recommendation No. 2 should be changed as follows:

             “We recommend that the Director, FFP work with the Office of
             Procurement to receive adequate justification from CRS that internal audit
             costs are properly allocable to the annual OMB Circular A-133 audit effort.
             If these costs are part of the annual A-133 audit, or if they support the
             internal audit group, which is a function of accounting and internal
             controls, then the Director, FFP request that CRS explain why these costs
             are not part of the indirect cost pool, thus negating the need to issue a direct
             award to support this effort.”



                                                                                           9
10
